CERTIFICATE OF COMPLIANCE
NO.
In the Supreme Court of the United States

Julie Dalessio,
Petitioner
v.
UNIVERSITY OF WASHINGTON, a Washington Public Corporation;
Eliza Saunders, Director of the Office of Public Records;
Alison Swenson, Compliance Analyst;
Perry Tapper, Compliance Officer;
Andrew Palmer, Compliance Analyst; and
John or Jane Does 1-12.
Defendant-Appellees
Respondents.
As required by Supreme Court Rule 33.1 (h), I certify that the petition for a writ
of certiorari contains 8989 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d) and Rule 14.1 (f).
A single copy of the documents is submitted on 81/2 x 11 inch paper, pursuant
to the Court’s April 15, 2020 and November 13, 2020 orders.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 24, 2021

Julie Dalessio
juliedalessio@msn.com
206-324-2590
1110 29th Ave.
Seattle, WA 98122

